<html>
<title> - MAINTAINING A LEVEL PLAYING FIELD FOR D.C. GRADUATES: LEGISLATION TO REAUTHORIZE THE D.C. COLLEGE ACCESS ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 MAINTAINING A LEVEL PLAYING FIELD FOR D.C. GRADUATES: LEGISLATION TO 
                REAUTHORIZE THE D.C. COLLEGE ACCESS ACT

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 4012

    TO AMEND THE DISTRICT OF COLUMBIA COLLEGE ACCESS ACT OF 1999 TO 
  PERMANENTLY AUTHORIZE THE PUBLIC SCHOOL AND PRIVATE SCHOOL TUITION 
             ASSISTANCE PROGRAMS ESTABLISHED UNDER THE ACT

                               __________

                             MARCH 25, 2004

                               __________

                           Serial No. 108-172

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-000                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 25, 2004...................................     1
Text of H.R. 4012................................................     6
Statement of:
    Valentine, Kelly, acting director, District of Columbia 
      Tuition Assistance Grants Program; Argelia Rodriguez, 
      executive director, District of Columbia College Access 
      Program; Brian L. Ford, former DC TAG recipient; and 
      Anthony Talley, director of guidance and counseling, 
      Washington Math Science Technology Public Charter High 
      School.....................................................    27
    Williams, Anthony A., Mayor, District of Columbia............    10
Letters, statements, etc., submitted for the record by:
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Ford, Brian L., former DC TAG recipient, prepared statement 
      of.........................................................    42
    Rodriguez, Argelia, executive director, District of Columbia 
      College Access Program, prepared statement of..............    37
    Talley, Anthony, director of guidance and counseling, 
      Washington Math Science Technology Public Charter High 
      School, prepared statement of..............................    46
    Valentine, Kelly, acting director, District of Columbia 
      Tuition Assistance Grants Program, prepared statement of...    30
    Williams, Anthony A., Mayor, District of Columbia, prepared 
      statement of...............................................    14

 
 MAINTAINING A LEVEL PLAYING FIELD FOR D.C. GRADUATES: LEGISLATION TO 
                REAUTHORIZE THE D.C. COLLEGE ACCESS ACT

                              ----------                              


                        THURSDAY, MARCH 25, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154 Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Waxman, and 
Norton.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director and director of communications; 
John Hunter, counsel; Robert Borden, counsel/parliamentarian; 
Drew Crockett, deputy director of communications; John 
Cuaderes, senior professional staff member; Mason Alinger and 
Shalley Kim, professional staff members; Teresa Austin, chief 
clerk; Brien Beattie, deputy clerk; Corinne Zaccagnini, chief 
information officer; Phil Barnett, minority staff director; 
Kristin Amerling, minority deputy chief counsel; Karen 
Lightfoot, minority communications director/senior policy 
advisor; Michelle Ash, minority senior legislative counsel; 
Earley Green, minority chief clerk; Jean Gosa, minority 
assistant clerk.
    Chairman Tom Davis. Good morning. The committee will come 
to order.
    I want to welcome everybody to today's hearing to discuss 
the reauthorization of the District of Columbia Tuition 
Assistance Grant Program. The purpose of the hearing is to 
highlight the tremendous impact the tuition assistance program 
has had on promoting higher education for high school graduates 
in the Nation's Capital.
    The original aim of the program in 1999 was to provide D.C. 
high school graduates the same opportunity that college bound 
seniors in each of the 50 States have, specifically a network 
of State supported institutions to attend at a relatively low 
cost. The program sought to level the playing field for D.C. 
residents who do not have access to a similar State supported 
system.
    To accomplish this, the Tuition Assistance Grant Program 
covers the difference between in State and out of State tuition 
rates for District high school graduates at public colleges and 
universities throughout the Nation. The program also provides 
limited financial assistance to D.C. high school graduates 
attending private schools in the D.C. metropolitan area as well 
as students who attend private historically Black colleges and 
universities in other States.
    Given that the original authorization for the program 
expires after next year, Congresswoman Norton and I introduced 
H.R. 4012 on Tuesday to reauthorize the D.C. College Access 
Act. After all, the need for the program that existed in 1999 
continues to exist today. The impact of the grant program on 
the capital city is undeniable. Data from the Department of 
Education's integrated post-secondary education data system 
showed that the number of D.C. high school graduates continuing 
on to college increased from 1,750 in 1998 to 2,230 in 2002. 
That's a 28 percent increase since the program was created. 
Compare that to the national average over the same period, 5 
percent increase.
    Granted, there are a number of factors that help explain 
this rise, but a person would be hard pressed to deny the role 
of the D.C. tuition assistance program. According to a survey 
conducted by the program, the vast majority of students who 
have received assistance through the program have indicated 
that the existence of the grants made a difference in their 
decision to attend college and was a key factor in deciding 
which college to attend.
    Operating hand in hand with the publicly funded D.C. 
tuition assistance program is the D.C. College Access Program, 
an endeavor created and funded by the private sector to promote 
higher education in the District by offering last dollar 
financial assistance and college counseling to D.C. high school 
students. The double punch provided by the Mayor's D.C. tuition 
assistance program and the private sector's D.C. College Access 
Program is clearly having a tremendous impact on the 
educational opportunities available to D.C. high school 
students, and it's equally clear that students are becoming 
more aware of and choosing to take advantage of these 
opportunities.
    As the committee moves forward with the consideration of 
H.R. 4012, I look forward to hearing from the witnesses their 
first hand accounts of how this program has improved the 
quality of education in the Nation's Capital, and what should 
be done to improve the program in the future. I want to 
especially welcome Mayor Williams here this morning. He was 
instrumental in the original passage of the legislation and he 
has been committed to the success of the program from the 
beginning.
    Leveling the playing field for high school graduates in the 
District of Columbia continues to be a top priority for me, as 
chairman of the committee that has oversight responsibility for 
the District of Columbia. After all, I represent a neighboring 
jurisdiction, and I've always believed that you can't have a 
healthy region without a healthy city. Our destinies are 
intertwined, and you can't have one school system across the 
river where you're sending 90 percent of the kids to college 
each year with great varieties and choices of State university 
systems and across the river deny them the same kind of 
opportunities. That's what this is all about, one Nation, one 
region, indivisible.
    I welcome the witnesses here today to discuss this 
important issue, and last, I want to welcome the students, 
counselors and financial aid officers in the audience this 
morning who have come to show their support for this program. 
It's great to have you here.
    Mr. Waxman.
    [The prepared statement of Chairman Tom Davis and the text 
of H.R. 4012 follow:]

[GRAPHIC] [TIFF OMITTED] T5000.001

[GRAPHIC] [TIFF OMITTED] T5000.002

[GRAPHIC] [TIFF OMITTED] T5000.003

[GRAPHIC] [TIFF OMITTED] T5000.004

    Mr. Waxman. Thank you very much, Mr. Chairman, for holding 
this hearing. I want to commend you and Ms. Norton for your 
continued support for the District of Columbia Tuition 
Assistance Grant Program, the DC TAG. DC TAG provides grants 
for undergraduate District students to attend eligible public 
universities and colleges nationwide at in-State tuition rates. 
In addition, it provides smaller grants for students to attend 
private institutions in the D.C. metropolitan area and private 
historically Black colleges and universities nationwide.
    DC TAG is providing D.C. high school graduates with 
wonderful higher educational opportunities. Not only is it 
allowing graduates to attend schools that they otherwise would 
not have been able to attend, it has helped many graduates 
attend college who otherwise would not have attended college at 
all. The statistics demonstrate its success. DC TAG has helped 
6,527 students pay for college. DC TAG recipients attend 
schools in 46 States. The students are from all over the 
District, with wards four, five and seven having the highest 
percentage of DC TAG students. Over half those students 
participating in DC TAG state that they are the first in their 
immediate families to attend college.
    As a Member of Congress from California, I understand the 
value of higher education choice. California high school 
graduates who want to attend a public higher education 
institution have the opportunity to consider many community 
colleges, Cal State schools, and the University of California 
system schools. High school graduates in the District of 
Columbia also need choices.
    As Congress moves forward with reauthorization of the DC 
TAG Program, I'm mindful that, just like students in the 
District, students in California and in all States are 
struggling due to the increasing costs of higher education. I 
hope Congress will also support helping all students afford 
college through mechanisms such as grants, loan and tax 
deductibility. I also understand that the States are struggling 
to pay for their share of these costs. The states pay the 
greatest share of the expenses for the public schools for 
higher education, I hope that we, in Washington, when 
developing policies do not ignore the States' economic needs, 
but assist them so that they can, especially in this time of 
economic downturn, still keep faith with the students in their 
public universities, colleges and schools.
    I look forward to the testimony from our distinguished 
witnesses on the important matter at hand. I also look forward 
to quickly marking up H.R. 4012, the bill reauthorizing DC TAG. 
I commend Ms. Norton and Mr. Davis, both from this region, Ms. 
Norton representing the District of Columbia, for their 
leadership in establishing the program in the first place, and 
their deep commitment to continuing it. This compliments to the 
students that will have an opportunity, as I indicated, many 
for the first time in their families, to get a higher 
education.
    That is so important, it's what this country is all about, 
the opportunity to move up in the economic ladder, to have 
every chance to succeed and to fulfill your ambitions. That 
seems to me what this country is all about. And for those who 
can't afford it, we need to make it available to them. Thank 
you very much.
    Chairman Tom Davis. Thank you very much.
    And Ms. Norton, you were in on the creation of this and 
very instrumental. Any opening comments?
    Ms. Norton. Yes, Mr. Chairman. I won't say I'm the mother 
and you're the father, because I don't know what that would 
imply. [Laughter.]
    Thank you, Mr. Chairman, for your early scheduling of this 
hearing on the reauthorization of the District of Columbia 
College Access Act of 1999, which funds the D.C. Tuition 
Assistance Grant Program [TAG], affording ample time to get the 
bill through the House and the Senate. It would be difficult to 
cite a bill that is as universally popular among residents of 
all backgrounds in the District. Although our $5,000 homebuyer 
tax credit, allowing $5,000 to be deducted from the income 
taxes of residents buying a home in D.C. is another 
congressional bill that has had similar city-wide appeal.
    However, the D.C. College Access Act provides simultaneous 
and immediate benefits to both District residents and to the 
city itself. The DC TAG recipients range from residents for 
whom college was more of a dream than a possibility to 
residents who might otherwise have moved to the Maryland or 
Virginia suburbs, and along with them, more of the District's 
already depleted tax base. The rising cost of tuition is a 
significant reason why many residents left and others refused 
to settle here, rather than in Maryland or Virginia, which each 
has more than 30 different kinds of colleges and universities 
to fit the specific needs and interests of residents.
    D.C. has only one public university, the vital University 
of the District of Columbia. I am pleased that because of the 
DC TAG bill, we were able to get UDC funded on an annual basis 
as an HBCU for the first time in its history.
    I am particularly grateful to you, Mr. Chairman, and to 
Ranking Member Waxman, as well as to Senators George Voinovich, 
Mary Landrieu and Dick Durban for your leadership efforts in 
obtaining and sustaining TAG. And to President Bush, who came 
to office several years after the bill was in effect, saw the 
evidence of its success and has continued to fund it in his 
budget at authorized levels.
    The evidence of the success of the program and return on 
the dollar to residents and to the city itself is not in 
dispute. Close monitoring by the GAO and by our office has 
shown that TAG has generally been well run. Nevertheless, we 
will be interested in learning whether 5 years of experience 
suggests any significant operational improvement. Perhaps the 
most important issue before us today, however, is the financial 
viability of TAG going forward. The growth of the program has 
been phenomenal. It would be unfortunate if projected 
shortfalls of $10.2 million in the next fiscal year and up to 
$34 million in shortfall in fiscal year 2008 forced a change in 
the nature and structure of the program itself.
    If for example TAG subsidizes only a part of in-State 
tuition, its value to many residents who cannot afford college 
and its use as an incentive in attracting and maintaining tax 
paying residents will diminish. The $17 million amount used in 
1999 as we pressed for this bill was a best guess. It was a 
pretty good guess. Because despite rapid growth in TAG 
recipients, the program still fully funds the amount provided 
to every student. The manifest success of the program and its 
benefits to residents and to the District's economy argues 
strongly for every effort to ensure that TAG keeps abreast of 
inflation and of the demand for education by parents and 
students.
    As we are all aware, tuition at State colleges has 
increased dramatically during the poor economy of the last 3 
years. I have been amazed by the huge increases in tuition that 
State legislatures have been quick to approve, forcing many 
students to drop out, postpone or perhaps never attend college. 
Rising tuition costs would make TAG worthless for many of our 
young people in D.C. who use it. Students who attend private 
colleges in this expensive city and region receive only $2,500, 
a helpful amount, but one that also must be reviewed in the 
context of rapidly rising tuition costs.
    I welcome not only Mayor Williams and Kelly Valentine, the 
Acting Director of the program, but especially our witnesses 
who can testify about TAG's real life effects, possibilities 
and problems. The privately funded D.C. College Access Program, 
whose director, Argelia Rodriguez, will also testify, has been 
a perfect match for TAG. CAP's last dollar funding is a welcome 
financial supplement, but CAP's work is particularly invaluable 
in helping D.C. students maneuver through the often byzantine 
issues that face students who may be the first in their 
families to attend college.
    I look forward to learning more about TAG and CAP from 
those who have taken the program on paper and made it work for 
the D.C. residents and hearing from the D.C. residents who have 
put these programs to good use. Thank you very much, Mr. 
Chairman.
    Chairman Tom Davis. Thank you very much.
    And our first witness we have, the Mayor of the District of 
Columbia, who was instrumental in helping set this up, the 
Honorable Tony Williams. Tony, would you raise your hand with 
me?
    [Witness sworn.]
    Chairman Tom Davis. Thank you. Thanks for taking the time 
to come today and thanks for your leadership in this issue.

 STATEMENT OF ANTHONY A. WILLIAMS, MAYOR, DISTRICT OF COLUMBIA

    Mayor Williams. Chairman Davis and Congresswoman Norton, I 
want to recognize you and thank both of you for your leadership 
in general and certainly for your leadership and partnership 
as, what is it, mother and father of this program, for pulling 
it together.
    Chairman Tom Davis. That's how rumors get started. 
[Laughter.]
    Mayor Williams. And I certainly want to acknowledge 
Congressman Waxman not only for his partnership with us on 
activities like this, but also for his leadership on the 
environment. We've certainly learned a lot of lessons over the 
last couple of weeks, and his leadership over the years I think 
is really coming to the fore now. I want to thank all of you 
for that.
    Another person I really want to mention who really played a 
leadership role with the both of you in putting this together 
was the great, late Kay Graham who leaned on a lot of people to 
help get this program forward. I think this is just another 
legacy of all the wonderful things she did in our city. I 
certainly want to acknowledge her and the continuing work of 
the Graham family on this.
    And last but not least, as you've mentioned, Mr. Chairman, 
all the great folks who have actually benefited from this 
program who can testify to that today. All of us are pleased to 
have the opportunity to present testimony on the Tuition 
Assistance Grant Program, and I'm pleased to be here to answer 
your questions.
    Since its inception, DC TAG has awarded over $63 million to 
District residents with higher education goals. As you consider 
reauthorization of the program, I believe it would be useful to 
examine if DC TAG has achieved its primary goal of expanding 
both the number of D.C. residents attending college and the 
choice of post-secondary institutions available to them. Very 
simply, I think the answer to both of these questions is a 
resounding, affirmative yes. Quite simply, were it not for this 
program, thousands of D.C. families could not have afforded to 
send their sons and daughters to college, and moreover, many 
families would have been faced with very limited options in 
terms of where their children went to school.
    The evidence before us is really quite compelling. For 
example, more D.C. residents are attending college than ever 
before. Between 1998 and 2002, the number of D.C. high school 
graduates who enrolled as freshmen in colleges and universities 
nationwide has increased by 28 percent. No State in the Union 
can make that claim. This unprecedented figure is due in large 
part, if not almost exclusively, I believe, to DC TAG and the 
expanded opportunities for D.C. residents that result.
    For many families, their children are first generation 
college attendees. I think you'll hear testimony on this today. 
A survey among Woodson High School graduates, and I've been 
over to the Tower of Power, as we say, and talked to students, 
a survey among Woodson High School graduates using the program 
shows that more than 50 percent of those students are first in 
their families to go to college. Besides being an enormous 
source of pride for these families, this fact demonstrates, I 
think, a lot for the educational attainment of their siblings, 
other children and grandchildren to follow. Indeed, I believe 
it can significantly improve economic development and other 
societal factors in neighborhoods that have been plagued by 
chronic underdevelopment, unemployment and limited education 
attainment.
    Another fact for District families, DC TAG has made college 
considerably more affordable. In fact, during the 1999-2000 
school year, undergraduates from the District paid more than 
twice the national average to attend public institutions 
outside the District, while during the 2000-2001 school year, 
not only did DC TAG level the playing field, but students saved 
thousands of dollars in college costs.
    Another fact, DC TAG has become an essential element in 
higher eduction planning for our families. All together, more 
than 6,500 students have received tuition assistance since 
2000. The number of awards for current school year is more than 
4,000, twice the number of awards in our first year.
    Now, our students have attended more than 300 institutions 
in 46 States, including nationally recognized public 
institutions, such as University of Virginia and the University 
of Michigan at Ann Arbor, as well as many public historically 
Black colleges and universities. I mentioned Virginia State, 
Delaware State, plus HBCUs such as Morehouse and Spellman in 
Hampton, and local jewels like our own Georgetown University, 
Howard University, Trinity College and University of Maryland 
at College Park.
    Participation in the program represents a full diversity of 
the city, with representation across the city's wards. This was 
a concern when this was started, and I think this has been 
addressed by experience. Our outreach efforts have been 
successful insofar as the participants represent young people 
from all ethnic backgrounds and income levels as well as 
students from virtually every public and non-public high school 
where District residents attend. And as we seek to improve the 
prospects of our current residents and expand our base of tax 
paying citizens, the TAG Program is an important tool for 
economic and social development.
    We are excited about the prospect that these graduates will 
utilize their experiences and newly minted degrees at home here 
in the District. The academic success of these students hold 
great promise that they will return to our city as catalysts to 
sustain the social and economic changes that are really 
prerequisites for the city to realize its position as a leader 
in this new economy.
    In many ways, though, DC TAG is a victim of its own 
success. As previously mentioned, our residents are attending 
college at record levels. That's great. They're attending 
colleges across the country, including some of our most 
prestigious. That's great. Beyond the rising number of 
participants, we're faced with significant increases in public 
tuition costs across the country. The impact on the program's 
budget as shown by the fact that in our first year, under $10 
million in awards were issued while this year it will be closer 
to $21 million.
    So we're facing a situation with great demand, which is 
great, we're also facing a situation with higher costs across 
the country. And you mentioned, both you and Congresswoman 
Norton mentioned this higher cost issue in your statements.
    With your increased support, though, we anticipate that 
over the next 5 years, DC TAG will grant over 30,000 awards. 
Specifically, we'll need annual appropriation of at least $25.5 
million, roughly, $25.6 million exactly, to enable us to 
continue offering the same level of benefits to new graduates. 
Without such an increase, we will be faced with several very 
unpleasant possibilities. And they really are unpleasant when 
you put it against the backdrop of all the great things that 
have happened here.
    What are they? Well, decreasing the lifetime award maximum, 
reducing the yearly maximum awards and/or converting the DC TAG 
to a needs based program. We know that this would limit 
participation in the program and otherwise narrow the choices 
available to our residents.
    Now, legislators might ask if it's not reasonable for the 
city to use local funds to sustain the program. Mr. Chairman, 
such sentiment I think ignores the basic premise of the 
program, namely that the relatively small population of the 
District and the federally imposed constrictions on fiscal 
condition preclude us from funding the sort of post-secondary 
institutions that our citizens deserve. We have our UDC, we've 
struggled to fund our UDC adequately. But we need a full range 
of choices of our students. This program helps to level the 
playing field by granting D.C. residents the sorts of options 
enjoyed by residents of other States.
    Our own public university, as I said, is constrained by 
both funding and scale from offering our residents a full 
educational menu. As long as Congress continues to limit the 
city's tax base, and impose financial burdens, situations that 
are directly related to denial of voting representation, we are 
unable to fund this important program. Few cities across the 
country have the responsibility of providing a higher education 
network for their residents. All cities in the country can rely 
upon their State capital to provide this kind of service. No 
city in America does what we do, no State government to 
administer a university system and no financial base to make up 
the difference.
    So I strongly urge you, Mr. Chairman and members of the 
committee, to reauthorize this program and to work with us to 
ensure through the appropriation committees that we ensure full 
funding to make this program available to all District citizens 
and residents, make it available to our families regardless of 
need, wherever they live in our great city. With that, I'd be 
happy to answer your questions and look forward to working with 
you in the future on this important program.
    [The prepared statement of Mayor Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T5000.005
    
    [GRAPHIC] [TIFF OMITTED] T5000.006
    
    [GRAPHIC] [TIFF OMITTED] T5000.007
    
    [GRAPHIC] [TIFF OMITTED] T5000.008
    
    [GRAPHIC] [TIFF OMITTED] T5000.009
    
    [GRAPHIC] [TIFF OMITTED] T5000.010
    
    [GRAPHIC] [TIFF OMITTED] T5000.011
    
    [GRAPHIC] [TIFF OMITTED] T5000.012
    
    [GRAPHIC] [TIFF OMITTED] T5000.013
    
    [GRAPHIC] [TIFF OMITTED] T5000.014
    
    Chairman Tom Davis. Mayor Williams, thank you very much.
    We talked about the city's responsibility for higher 
education, if we didn't come in. Every other city in the United 
States has a State that they share responsibility with. And 
higher education has been a State responsibility. The District 
doesn't. I mean, it's that simple, when you take a look at 
this. We couldn't expect the city to have the kind of education 
system at the higher levels that States offer. And this was 
just an attempt to level the playing field, quite frankly.
    So I think your point is very well taken. I think this is a 
congressional responsibility. My opinion is that the program 
ought to probably be enhanced. I was just taking a look at the 
colleges and universities that the kids in the city have gone 
to, and it's a very impressive array of universities. Members 
need to understand that this helps a lot of their schools back 
home, when you have kids coming here, paying the full boat in 
terms of them making their numbers work.
    This has also helped the city demographically, hasn't it, 
stopped the flight out of the city as people get their kids 
toward college age, and they can go to Virginia or go to 
Maryland or something like that? Have you seen a demographic 
limit when you start offering the same higher educational 
opportunities that States do?
    Mayor Williams. We've had, as you know, some issues with 
the demographers, as cities always do. But I think if you look 
at all the other evidence, statistical and anecdotal, and 
people applying for permits, licenses, renewals, housing demand 
in the city, you see that, I think, our population has 
stabilized and it is turning back up in two important ways. 
One, on the higher end, yes, you're seeing people who are 
staying in the city because there are those choices. But as I 
mentioned with Woodson, and this is very important, you're 
seeing families that are struggling that otherwise would have 
left the city, and that's even a worse situation, where you're 
struggling to make it, enter the world of responsibility, the 
city can't help you, otherwise would have left. And they left 
over the last 20, 30 years, now they're staying because they 
know there is promise and potential for their kids.
    That figure, I think, to share that with other Members 
here, that figure at Woodson that I mentioned, 50 percent 
increase in matriculation is a powerful figure.
    Chairman Tom Davis. I think as you and Ms. Norton and 
others go out and spread the word in the city and it gets out, 
I mean, the way this was envisioned to work, and Mrs. Graham 
would have said the same thing, kids start going to college 
because instead of just a dream it becomes something affordable 
to them. One kid starts, another kid starts, all of a sudden 
it's the thing to do.
    In my local high schools in Fairfax, you walk up to 
somebody, what are you doing next year, everybody's going to 
college. I'm going here, I'm applying here, that's just what 
everybody does. We need to make that this way in the city, too, 
that this is the thing to do.
    And this is how it starts. You take a look at the market 
increase, and as we're a long way from where we want to be, 
obviously, Mayor Williams, but this is a start. Maybe an 
enhancement of the program, even a modest enhancement, Ms. 
Norton, could help that as we work our way through some tough 
budgetary times.
    I think the program has been a tremendous success. I think 
the only boundaries are basically our ability to go out and 
spread the word to the kids in the city and have the funds 
available. That's our limitation.
    How many more people could take advantage of this, do you 
think, if funding were unlimited? Does anybody have an idea of 
how many kids we're missing right now because we have 
limitations on the funding? Next panel will have that.
    Mayor Williams. My understanding, and it's just been 
confirmed, is that there's no limitation now, but as we project 
into the future, over the next 5 years, if we don't make the 
changes we're talking about, the level of funding----
    Chairman Tom Davis. We're going to come up against the 
limits.
    Mayor Williams [continuing]. Then we will see a loss of 
students.
    Chairman Tom Davis. I think that's where we're heading, 
just trying to stay ahead of the curve.
    Let me again thank you for your help in this, and I think 
the program has been a success. I have people stop me all the 
time who are D.C. students, who are somewhere and thank me for 
the program. Usually when I run into somebody from D.C., 
they're not thanking me for something. [Laughter.]
    But this is one you feel good about, you've given 
opportunity to kids that they wouldn't have had otherwise.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I found the Mayor's 
testimony quite complete. I do have a question or two for him.
    I do want to reemphasize what you said about the model that 
we used in drawing this bill, it was a State model. The 
chairman uses the term level playing field. It seems to me that 
our first obligation is to keep it as close to what residents 
in the States experience. And it's amazing what they 
experience, because they go to graduate school. Imagine going 
to law school. If you go to Georgetown, where I still teach, 
and somebody were to say, you can go, if it were a State 
school, the low in-State tuition, the difference would be huge.
    But keeping to this model, indeed, Mr. Chairman, if you 
recall, we insisted on this model so scrupulously that when 
some of your residents came to see you about whether or not in 
Virginia private schools would qualify under our program, you 
remember that many State schools give amounts to go to private 
schools, lesser amounts, nevertheless amounts to go to private 
schools. And it was at your suggestion that we added private 
institutions.
    That has really been a big boon. Because if you look at the 
largest number of students who use the TAG Program, the largest 
number go to Howard University, which means that they stay 
home, therefore save travel and living expenses, probably, and 
therefore it has meant something important, whether you go away 
to school in a region or in the country or whether you stay at 
home.
    As for the District picking up some of the cost, Mr. Mayor, 
as I understand it now, you are in the process, and I'm working 
with you, the chairman is working with me, indeed, as I speak, 
of trying to get the Federal Government to take over State 
functions which no city bears. So we don't do the city a favor 
by putting yet another State function on the city. The city 
already has UDC, and we say, OK, you take the costs also of 
students going to State supported institutions.
    So I'd like to know what that would do budgetarily if you 
had to take on this State function. Do you think there's room 
in your budget to take on part of the cost here, or indeed, 
don't you already pay, doesn't the city already have its own 
program to assist in tuition for students who need some 
assistance?
    Mayor Williams. In the LEAP Program we added $1.5 million--
--
    Ms. Norton. What is it called?
    Mayor Williams. Leveraging Education Attainment Program, or 
Achievement Program, a million and a half. But I think the 
larger issue you address is that, the GAO has found this, 
coastal cities tend to be higher cost. We have a high 
concentration of poverty in our city, we have a number of 
Federal responsibilities, particularly in the infrastructure 
area, without the resources to meet those responsibilities. So 
people can look at our budget and say, well, can't you just 
find money for this in your budget? Yes, we can, but we're 
robbing Peter to pay Paul.
    And you're right, it is particularly onerous when you're 
talking about a State responsibility and this whole issue is 
caused by a mismatch of State responsibilities without a State 
tax base and no State to take care of it.
    Ms. Norton. Indeed, if I may offer an opinion, Mr. Mayor, 
if you do perhaps have any extra money, I would suggest you put 
it into the D.C. public schools, so that children can be 
prepared to go to college somewhere, rather than into higher 
education. First thing is first.
    Mayor Williams. Well, if I could just answer that as a 
great example, because I know all the States come up here 
asking for money for their IDEA, for their special education to 
help their States take care of these costs. We've got a double 
whammy. We're a city faced with a State responsibility which 
has a huge chunk of our public education budget.
    Ms. Norton. So to put it in DEA, or let me ask you, as I 
remember it, didn't D.C. either have to decimate or cut its 
capital budget for the public schools last year?
    Mayor Williams. Both years. And we're proud of the fact 
that we've gotten the District an investment grade rating now. 
We're hoping that we'll get another improvement this year. But 
in order to do that, as you all know over the years from 
monitoring our finances, we have to maintain the right per 
capita debt load. In other words, it's like the family, we've 
got to lighten up on the credit cards.
    So basically what we've done is we've dumped around $300 
million of capital off the capital budget. But we've protected 
the schools. Well, when people drive in raggedy roads, when 
they see infrastructure that isn't quite what it should be, 
that's an example of that. So we're being fiscally responsible, 
but we are robbing our infrastructure.
    Ms. Norton. Including your school infrastructure.
    Mayor Williams. I think the business community, for 
example, that works with our schools, they go in there and tell 
you that you're over $2 billion, somewhere between $2 billion 
and $3 billion in your school capital needs, for all your 
schools combined. And we're putting in about $800 million, $900 
million, it sounds like a lot of money, but it doesn't really 
approach what the need is.
    Ms. Norton. Thank you very much, Mayor Williams, and thank 
you, Mr. Chairman.
    Mayor Williams. Thank you.
    Chairman Tom Davis. Tony, thank you very much for being 
here.
    Mayor Williams. Thank you, and thank you, Congresswoman 
Norton.
    Chairman Tom Davis. We have a second panel, we'll call you 
up now. We'll take a 2-minute recess.
    [Recess.]
    Chairman Tom Davis. We'll swear everybody in.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you. Our next panel is a very 
distinguished panel. We have Kelly Valentine, the acting 
director of the District of Columbia Tuition Assistance Grants 
Program; Argelia Rodriguez, the executive director of the 
District of Columbia College Access Program; Brian Ford, a 
former DC TAG recipient, and Anthony Talley, the director of 
guidance and counseling at the Washington Math Science and 
Technology Public Charter High School.
    Right in front of you are some lights. The green light 
means go, it means you have up to 4 minutes, then it will turn 
yellow, that means you have 1 minute left, and try to sum up in 
5 minutes. Your total testimony is in the record, so it's part 
of the official record when we put up the hearings. Questions 
will be based on that.
    So try to keep it to 5 minutes and then we'll go to 
questions. Let me just thank each of you for being here today. 
We're really happy to have you and hear about this as we move 
to reauthorize this.
    Ms. Valentine, we'll start with you and then move straight 
on down. Welcome.

  STATEMENTS OF KELLY VALENTINE, ACTING DIRECTOR, DISTRICT OF 
COLUMBIA TUITION ASSISTANCE GRANTS PROGRAM; ARGELIA RODRIGUEZ, 
    EXECUTIVE DIRECTOR, DISTRICT OF COLUMBIA COLLEGE ACCESS 
 PROGRAM; BRIAN L. FORD, FORMER DC TAG RECIPIENT; AND ANTHONY 
 TALLEY, DIRECTOR OF GUIDANCE AND COUNSELING, WASHINGTON MATH 
         SCIENCE TECHNOLOGY PUBLIC CHARTER HIGH SCHOOL

    Ms. Valentine. Good morning, Chairman Davis, Congresswoman 
Norton and other members of the committee. My name is Kelly 
Valentine and I am the interim director of the District's 
Tuition Assistance Grants Program [DC TAG]. I am proud to be 
here today to provide testimony on the success of the DC TAG 
Program and the unprecedented value that it has added to 
numerous families across the District of Columbia.
    Your support and efforts to make this program a reality is, 
without doubt, one of the cornerstones to ensuring that the 
Williams administration realizes its goal to strengthen 
children, youth, family and elders. In particular, in the 12 
days that I have been working in the DC TAG office, I am 
impressed by this program's ability to disburse more than $63 
million to 6,527 students and am excited by the possibility of 
doubling the impact of this service to the community as we 
embark on the next phase of programming.
    While you consider reauthorizing the program, I implore you 
also to add to your thinking a few facts that speak to DC TAG's 
overwhelming success. While the first cohort of students who 
took advantage of the grant are preparing for graduation, we 
anticipate we will all soon realize benefits that the program 
has had for students, entire families and their communities.
    To put this reality into perspective, let me begin by 
providing you with some hard numbers. To date, close to $25 
million has been disbursed to public institutions across 46 
States and the District of Columbia. Over $23 million has been 
disbursed to public and private HBCUs. Nearly $3 million has 
been disbursed to colleges and universities in the Washington 
Metropolitan area.
    It should be noted that Virginia, Maryland and D.C. round 
off the top five States receiving DC TAG grants. These figures 
speak directly to our students' desires to broaden their 
horizon as well as the institutions' willingness to support the 
District's efforts to provide residents with a vast array of 
first class options for higher education.
    Moreover, the students that have benefited from DC TAG 
reside in every ward in the city. Ward 4 continues to lead the 
way at 19 percent of students using the program, followed 
closely by wards 5, 7, 8 and 3, at 17 percent, 16 percent, 11 
percent and 10 percent, respectively. Initial surveys of 
graduating high school seniors from DCPS and charter schools 
indicate that for 75 percent of these students, DC TAG has made 
the difference in their decision to continue their education 
beyond high school. Sixty-five percent of the survey students 
indicated that the existence of the DC TAG Program has enabled 
them to exercise their right to choose the college that they 
feel will best suit their needs. Fifty-five percent of the 
students surveyed will be the first in their families to pursue 
higher education.
    It is clear from these results, amongst others, that the DC 
TAG Program is meeting and exceeding initial expectations 
framed in the unparalleled legislation signed into law on 
November 12, 1999. To encourage even greater participation in 
the program, DC TAG has made a number of notable adjustments in 
its program implementation. To name a few significant changes, 
DC TAG has redesigned its application to be more user friendly 
and we are working diligently to bring the application process 
on line by June of this year.
    Also, we look forward to working more closely with DC CAP 
to strengthen retention efforts already underway under their 
leadership. In addition, we are working with the business 
offices of participating institutions to develop seamless 
integrated disbursement processes. These and other operational 
improvements, coupled with strategic marketing and outreach 
efforts, will make certain that DC TAG continues to be 
successful.
    Most importantly, as Mayor Williams has indicated, to 
ensure the program's continued success, DC TAG needs an annual 
appropriation of at least $25.6 million which will surely 
enable us to realize the program's anticipated outcomes. As the 
Mayor once said, DC TAG has made the dream of attending college 
a reality for thousands of District residents. In a few 
minutes, you will hear first hand testimony on how DC TAG has 
made obtaining a first class education a possibility for 
District students.
    In conclusion, I thank you for the opportunity to testify 
before you on the District of Columbia Tuition Assistance Grant 
Program and look forward to answering any additional questions 
that you may have.
    [The prepared statement of Ms. Valentine follows:]

    [GRAPHIC] [TIFF OMITTED] T5000.015
    
    [GRAPHIC] [TIFF OMITTED] T5000.016
    
    [GRAPHIC] [TIFF OMITTED] T5000.017
    
    [GRAPHIC] [TIFF OMITTED] T5000.018
    
    Chairman Tom Davis. Thank you very much.
    Ms. Rodriguez, thanks for being with us.
    Ms. Rodriguez. Good morning. My name is Argelia Rodriguez, 
and I am the executive director of the District of Columbia 
College Access Program [DC CAP]. I am delighted to have been 
asked by the committee to speak to you today about the 
importance of the reauthorization of the D.C. College Access 
Act.
    Let me begin by thanking the Members of Congress who have 
championed this program from the beginning and who secured 
passage of what may be the single most important and successful 
education initiative in the history of the District of 
Columbia.
    In particular, I would like to acknowledge you, Chairman 
Davis, and you, Delegate Norton, for your extraordinary efforts 
to transform a good idea into an act of Congress. The D.C. 
College Access Act was born here in the House of 
Representatives and we're grateful for the leadership of 
Congressman Istook, Knollenberg, Frelinghuysen and Fattah of 
the House Appropriations Committee for ensuring that the act 
was fully funded from the start. And in fact, the D.C. College 
Access Act has enjoyed not only bipartisan support, but 
unanimous support in the first 5 years in both the House and 
the Senate, where Senators Voinovich, DeWine, Durban and 
Landrieu have been particularly helpful in securing passage and 
the funding of this landmark program.
    D.C. College Access was seen from the start as a 
partnership between Government and the private sector. The 
Government agreed to pay the difference between in State and 
out of State tuition for D.C. students attending college beyond 
the borders of the District of Columbia, and the business and 
the philanthropic communities in this area agreed to provide 
the resources necessary to launch an unprecedented college 
counseling admissions program for D.C. public high school 
students.
    The D.C. College Access Program [DC CAP], represents the 
fulfillment of this agreement and the private sector's 
substantial and long term commitment to increasing D.C. college 
student access. DC CAP has recruited, trained and put to work 
full time school based DC CAP advisors in all 18 D.C. public 
high schools. We provide direct college counseling services to 
more than 12,000 public high school students and their families 
starting in ninth grade. We start by telling these students 
that college is not an impossible dream, and that thanks to you 
and this remarkable legislation, they can go to college if they 
get the right preparation in high school.
    As the high school years unfold, we make sure that these 
students are taking the courses they need to gain admission to 
college. We assist them with their college applications, we 
help them secure financial aid and scholarships from public and 
private sources. If there is still a need left over, DC CAP 
will provide them with up to $2,000 a year in last dollar award 
scholarships assistance to make sure they can pay all the 
expenses associated with college.
    Once they're in college, DC CAP retention advisors continue 
to work with these students and their families, providing on-
campus student support services, academic and financial aid 
counseling for up to 5 years of college to help ensure that 
students are able to complete their education. DC CAP is 
currently tracking, counseling and/or providing financial 
assistance to almost 3,400 students at over 400 colleges around 
the country and has awarded almost $5 million in scholarships 
to low income students.
    This partnership has succeeded beyond our wildest 
expectations. DC CAP as a non-profit organization has raised 
some $35 million in private funds over the past 5 years. Much 
has come through significant grants from Lockheed Martin, Exxon 
Mobil, Fannie Mae, Marriott International, Verizon, the Morris 
and Gwendolyn Cafritz Foundation, Sallie Mae, the Riggs 
National Corp., the Eugene and Agnes E. Meyer Foundation, the 
Kimsey Foundation, Carnegie Corp., Comcast, Bank of America, 
Dell, Wachovia, U.S. Airways, I could go on and on, and at 
least 100 other companies and philanthropic organizations.
    We've also raised money through special fundraising events 
such as Fight for Children's School Night, the Sallie Mae 10K 
Run and the Tony Kornheiser and Mike Wilbon Celebrity Golf 
Classic and Roast. We've received large anonymous gifts and 
small donations from private citizens. The community is fully 
invested in DC CAP and their investment, along with yours, is 
paying large dividends already. This remarkable partnership 
between Congress and the Washington Community has in 5 short 
years become a national model for what the public and private 
sectors can do when they harness their distinct resources to a 
common purpose.
    The D.C. College Access Act is an unequivocal, unqualified 
success. While historical numbers are difficult to verify, we 
believe that the number of D.C. public high school graduates 
going on to college has doubled in the last 5 years, rising 
dramatically from 30 percent to 60 percent of students. Our 
belief is based on the unprecedented increases in D.C. student 
enrollment in colleges and universities around the country, as 
reported by the individual institutions themselves.
    As an example, from the fall of 1999 to the fall of 2002, 
D.C. student freshmen enrollment has increased 312 percent at 
Virginia State University, 900 percent at St. Mary's College of 
Maryland, 200 percent at North Carolina A&T, 185 percent at 
Ohio State, 243 percent at Penn State, 206 percent at Norfolk 
University, and 100 percent at the University of Vermont. I 
could go on and on, case after case, State after State, citing 
examples of colleges and universities all around the country 
that are reporting that their student enrollment has doubled, 
tripled and even quadrupled in less than 4 years.
    And let me reiterate that these statistics are not numbers 
that have been gleaned, extrapolated, interpreted or massaged 
in any manner. These statistics have been provided by the 
individual enrollment offices. And what does this mean? We know 
what this means is that the whole new population of students of 
the District of Columbia have been given the opportunity to go 
to college and they are taking it. The impact of the D.C. 
College Access Act simply cannot be overstated. The legislation 
has helped literally thousands of students who otherwise would 
never have the opportunity
to go.
    In conclusion, I urge you to reauthorize the act, because 
in fact it's the act of Congress that has earned the right to 
be renewed. Thank you.
    [The prepared statement of Ms. Rodriguez follows:]

    [GRAPHIC] [TIFF OMITTED] T5000.019
    
    [GRAPHIC] [TIFF OMITTED] T5000.020
    
    [GRAPHIC] [TIFF OMITTED] T5000.021
    
    Chairman Tom Davis. Thank you very much.
    Mr. Ford, welcome. Thank you for being here.
    Mr. Ford. Good morning, Chairman Davis and members of this 
distinguished committee. Thank you for allowing me to come and 
speak to you. My name is Brian L. Ford, and I'm a former 
recipient of the D.C. Tuition Assistance Grant Program.
    Born and raised in Washington, DC, I have experienced first 
hand the constant struggle to survive the dangerous streets 
while my family struggled to stay above the poverty line. Being 
able to afford college seemed far-fetched growing up in 
Southeast D.C. However, I am a goal oriented person and I did 
not let these things deter me from achieving my goal. I knew by 
the grace of God and support of my family, friends and others 
that I would find a way to pay for school.
    In 1998, I graduated from Eastern Senior High School here 
in the District and I decided to attend the University of 
Delaware, where I majored in political science. At Delaware, I 
received financial aid to assist me in paying for school. 
However, it was not enough. The first 2 years, my parents had 
to contribute almost $3,000 to help me pay for school, which 
was a lot for my parents at the time. I had two sisters and a 
nephew for whom my parents were still providing.
    In 2000, my junior year in college, I applied for and was 
awarded a D.C. Tuition Assistance Grant. For the first time 
since I started college, my parents did not have to pay 
anything out of their pocket for me to attend school. With the 
D.C. Tuition Assistance Grant, along with other financial aid, 
I was able to have my tuition paid in full. I was able to focus 
fully on obtaining my college degree and not worry if my 
tuition would be paid. My grades improved to the point where I 
made the Deans List twice and earned a 3.0 by graduation.
    I graduated in May 2002 from the University of Delaware 
with a Bachelors of Art degree in Political Science. That day 
was a very special day for my family and me. My family was 
proud to witness one of their own graduating from college. I 
was proud of myself for accomplishing my goals and thank 
everyone who made that day possible.
    Currently, I am a financial aid counselor at Trinity 
College here in D.C., where I advise students about financial 
aid and encourage D.C. students to apply for grants like D.C. 
Tuition Assistance Grant. We serve a significant population of 
D.C. residents who demonstrate a very high level of financial 
need. Some of these students are struggling to stay in school, 
and the D.C. Tuition Assistance Grant assists students to 
continue in school while in some cases borrowing less in 
student loans. Many D.C. residents at Trinity College are not 
currently able to benefit from this program, and I hope that 
some issues can be addressed in the reauthorization process to 
allow all D.C. residents to be eligible.
    In conclusion, I want to give a special thanks to Delegate 
Eleanor Holmes Norton and this committee for developing this 
program. I hope that you will agree with me that the D.C. 
Tuition Assistance Grant Program is a necessity for the city of 
Washington, DC, and its residents. I urge you to please 
continue to provide financial support to the D.C. Tuition 
Assistance Grant Program so 1 day students like myself can have 
a college degree hanging on their wall for the world to see.
    Thank you.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T5000.022
    
    [GRAPHIC] [TIFF OMITTED] T5000.023
    
    Chairman Tom Davis. Thank you very much, Brian.
    Mr. Talley.
    Mr. Talley. Good morning. My name is Anthony Talley, and 
I'm the director of guidance and counseling at Washington 
Mathematics Science Technology Public Charter High School.
    The District of Columbia College Access Act of 1999, Public 
Law 106-98, as amended, established a tuition assistance 
program providing D.C. high school graduates with tuition 
assistance to take advantage of higher education resources in 
the surrounding region and throughout the country. This 
legislation authorized funding for the program for 5 years. I, 
as a guidance counselor, want to personally thank Chairman 
Davis and Ms. Norton for your outstanding work.
    This program has a direct impact on D.C. high school 
students. Many students are the first in their families to 
attend college, Rutgers University, Frostburg State, Temple 
University, Penn State University, Hampton University, Johnson 
C. Smith University, North Carolina Central University, 
University of North Carolina Chapel Hill, North Carolina A&T 
State University, Fayetteville State University, University of 
Alabama, Ball State University, Edward Waters College, Kentucky 
State University, University of Cincinnati, Lincoln University 
in Pennsylvania and Missouri, Columbia University, University 
of Delaware, Vorhees College, Virginia State University, 
Norfolk State University, Winston Salem State University, 
University of Maryland at College Park, University of Maryland 
Eastern Shore, American University, Georgetown University, 
Howard University, and George Washington. The list goes on and 
on.
    I am an advocate for all students and parents, particularly 
from Washington Mathematics Science Technology Public Charter 
High School, H.D. Woodson Senior High School and the Washington 
Tennis and Education Foundation, Center for Excellence. Many of 
our students have been accepted to Yale, Harvard, Princeton, 
Dartmouth, Tufts and Stanford. However, this funding does not 
apply. This is a limitation based on current law.
    Chairman Davis, your committee must review future costs of 
attending State grant institutions, historically Black colleges 
and universities and local colleges and universities within the 
D.C. metropolitan area. All future students have the right to 
share this process. And I want to thank you.
    In closing, students seated in this chamber have already 
been accepted to colleges throughout the country. Most have 
received their official award notification of eligibility for 
the District of Columbia Tuition Assistance Grant, the TAG, for 
2004-2005 school year. Would those students who have received 
the notification and are waiting for notification please stand?
    Chairman Tom Davis. Thank you all for being with us. This 
adds a lot.
    [Applause.]
    Mr. Talley. In addition, a student who received his award 
from last year is also present. If he would please stand, he is 
now attending the University of Alabama at Birmingham, an H.D. 
Wood-
son graduate.
    [Applause.]
    Mr. Talley. Let me also add this. I urge full funding and 
reauthorization of the TAG Program. Thank you.
    [The prepared statement of Mr. Talley follows:]

    [GRAPHIC] [TIFF OMITTED] T5000.024
    
    Chairman Tom Davis. Thank you very much. Thank all of you.
    I've got votes on the floor, I'm going to have to go. 
Unfortunately, Ms. Norton doesn't get to go over. We're working 
on that, aren't we, Ms. Norton? It ought to happen.
    But I'm going to let her finish, chair the meeting and 
conclude it. But I have a couple of questions first.
    First of all, thank all of you for what you're doing, and 
to the students, you're the reason we do this. You're the 
future. We just want to give you the tools, and the rest is up 
to you. But thank you very much for being here. It means a lot 
to me and I know to Ms. Norton as well. It is our intent to 
move to reauthorization in this committee and move it to the 
House floor as quickly as possible and get it over to the 
Senate. We think this is an important bill and with all the 
other things that Congress has on its plate, sometimes 
legislation like this can slip through the cracks if we kind of 
wait until the last minute. But your being here, your testimony 
really adds to the record.
    I have a couple of questions. What percent of the students 
that are participating are from private schools, and what are 
from public schools in the city, public, private, charter, do 
you have any breakout of that?
    Ms. Valentine. I believe 80 percent are from public 
schools.
    Chairman Tom Davis. Very good. Very good. I mean, it 
applies to everybody, that's not it, but I just was curious to 
know that.
    I would be interested, you don't have to get this 
information now, the number of graduates that we have each year 
in the school system. I know that you have people dropping out, 
and this has nothing to do with the dropout rates. Dropout 
rates are going to happen. These are kids that graduate and 
there are opportunities when they graduate. The kids that don't 
graduate, we're looking at other strategies to help them get 
there.
    But that has nothing to do with this program. This program 
is for a kid who graduates, there's a future for you if you 
want to go to higher education. And we'd like to know how many 
graduates in the D.C. public school system are having each 
year, and a percent of those going to college versus the 
percent that were there before. That would be an important 
thing, just looking at the public school system, for the 
committee to know and have in the record. You may not have that 
at your fingertips, but we just would want to have it. I think 
it will be a statistic that helps this along.
    I don't see any legislative problems in moving ahead with 
this if we move now. We're in a tough budget year, but every 
year is a tough budget year up here. But this is a program that 
is successful, and when I see the young men and women here that 
have benefited, and people like Brian Ford and the young man 
over here from the University of Alabama, Birmingham, we want 
to try to bring stability to the program and predictability, so 
people know what's going on in the future and continue to get 
the word out.
    I would just say thank you to all of you for being here. 
Brian, what would you have done if you hadn't gone to college? 
What would have happened if you hadn't gone to college?
    Mr. Ford. I never really thought about that. I always knew 
that I wanted to go to college, sir.
    Chairman Tom Davis. Good work. That's what I want to hear. 
What we're trying to do is change the mentality of kids as they 
move up that college is something that they ought to do, that 
it's an in thing to do.
    Mr. Ford. Oh, yes. My generation has benefited from our 
past generation, this is the first generation I believe that 
will get the opportunity to go to college because of what our 
parents have done for us to get this opportunity. So I see that 
my peers are realizing that college is the thing, with 
assistance, with financial aid and other grants and 
scholarships out there, students realize that they can go to 
college now.
    Chairman Tom Davis. But a lot of kids at Eastern didn't go 
to college, right, that graduated?
    Mr. Ford. In my class, I am thinking maybe around 30 
percent. I could be wrong.
    Chairman Tom Davis. Hopefully that will come up. At my 
local high schools, it's 90 percent plus go to college or some 
kind of higher education. There's no reason over the next 
generation we can't change that in the District. It takes a lot 
of work, but you kids are kind of pioneers and pathfinders.
    I have to go, I'm going to give the gavel to Ms. Norton. 
Thank you all for being here. It's an important program to us 
and we want to move it as quickly as we can.
    Ms. Norton, over to you.
    Ms. Norton [assuming Chair]. Thank you, Mr. Chairman.
    You know, it says something about the trust between the 
Chairman and me that he gives me this gavel, fully expecting 
that I will give it back. [Laughter.]
    I have appreciated this testimony, and the way you've 
educated this committee. We now have, if this is the year of 
authorization, does that mean we have a cohort of four people 
who have received this benefit for 4 years?
    Ms. Valentine. Yes.
    Ms. Norton. If so, I need to know how many such people, are 
we to the point where we now have the first graduating class?
    Ms. Valentine. In May we will have the first graduating 
class. We will have one group coming in the fall.
    Ms. Norton. How many were there in the first year and how 
many are there in the graduating year?
    Ms. Valentine. It's about a 30 percent retention rate, so 
it's about 620 students of the 1,900 that started that we 
anticipated graduating, we're not sure yet. But they're 
scheduled to be in their fourth year.
    Ms. Norton. So 30 percent of those who started in the first 
year are graduating in the fourth year?
    Ms. Valentine. Correct.
    Ms. Norton. Now, we have to take into account what higher 
education is all about today. One of the things I'd like you to 
do is compare those figures, you may not have those figures 
today, with the number of students who graduated 4 years. In my 
generation that was more often done, of course far fewer people 
went to college, and many were self-financed, and then of 
course schools gave scholarships often for the full amount. You 
didn't have the loans and so forth.
    So it's a very different kind of world today. In fact, 
that's why the growth today is in adult education, 2 year 
colleges, people going back to colleges. So I don't want, in my 
generation we would have said wow, about 30 percent. But it 
will be important to see what that means by comparison.
    And I suppose it will be important also to see what it 
means for the District in the sense that Members and the public 
keep reading about poor scores on these D.C. tests that 
children take every year, and yet you have this rising number 
going to college. Ms. Valentine, can you reconcile this notion 
that somehow all these students are doing so poorly in tests, 
but where's the chairman's list of schools? The chairman and I 
were looking at this list of schools. I recognize that many of 
these students come from homes where somebody has gone to 
college.
    But goodness sake, when you see the variety of colleges 
here, that many of them are HBCUs, many of them are colleges in 
the region, you know for sure, even from your own testimony, 
that many are from families where they're the first to go to 
school. I can't reconcile all this notion about the D.C. public 
schools aren't training anybody with the figures--here it is. 
It's really something to see, this long list of schools here, 
where people are going.
    How is it that students who we're told don't do very well 
on these standardized tests are able to go in such large 
numbers and in such growing numbers to these schools that 
you're running out of money now to send them to these schools?
    Ms. Valentine. I think the one thing we need to reconcile 
is the number of graduates in total with the number of 
graduates that are going to school, and we're working on that 
number. So I'm not sure that I can answer your question now, 
but I'd be happy to get back to you.
    Ms. Norton. Say that again?
    Ms. Valentine. I'm not sure that we know the complete 
number, the accurate number of students that are graduating, 
and then the percentage that are actually graduating after 4 
years----
    Ms. Norton. No, I'm asking quite a different question. My 
question, and Ms. Rodriguez also wants to speak to it, my 
question is this. You have to qualify to get into a school. 
Many students drop out of school for financial--I don't 
associate anything with dropping out of school, because the 
majority of Americans do not now just finish in 4 years. And 
State schools are notorious for people dropping out and coming 
back.
    But you have to qualify to get in the school. So I'm trying 
to reconcile the notion that these students' test scores, which 
of course when they keep reading this, discourages them, I want 
them to know that some things that you're hearing cannot be 
entirely correct if in fact you have this large number of 
students going to colleges of every variety. Ms. Rodriguez and 
then Mr. Talley wanted to speak to that.
    Ms. Valentine. DC CAP has been instrumental in readying the 
students in the public schools for college exams and 
preparatory exams. I think that's what their role has been as 
our partner.
    Chairman Tom Davis. Ms. Rodriguez.
    Ms. Rodriguez. Thank you, Kelly.
    A lot of it is that the students, when students get the 
support that they need, the emotional, the academic in terms of 
tutorial, remediation, and they get long term support, which 
from our organization is priority, they are able to succeed in 
almost any environment. We have institutions that are willing 
to work with us who allow us to introduce students into the 
system where they pay special attention to them and they 
provide them with special services as well. And the schools are 
committed to diversity. So they will work with us to make sure 
that the kids we bring in succeed.
    I would just like to add that we also have our first 
complement of seniors graduating this year. Of the kids we are 
counseling, it was our small pilot class, 80 percent of them 
are still in school. And we are very, very excited about this. 
We're committed to them for 5 years, but we believe that with 
sustained intervention that these students from the District of 
Columbia can succeed at colleges.
    Before I go to Mr. Talley, does DC CAP help students get 
what virtually every middle class kid in America gets, which is 
the tutoring that comes with the SATs?
    Ms. Rodriguez. We do not provide the tutoring itself. But 
what we do is steer the children and motivate them to go to the 
services that are already provided within the school system.
    Ms. Norton. Are there services that pay, it's almost 
impossible to believe that there's a middle class kid in D.C. 
who doesn't pay tuition to go to get tutored as to how to pass 
the SAT. Are there organizations in D.C. that will pay for any 
child who wants to get such tutoring?
    Ms. Rodriguez. There are organizations that work with the 
school system. I know that the school system 2 years ago 
started offering Saturday free classes for students for 
preparation for SATs and ACTs. So the students were taking 
increasing advantage of that situation. But it is free to the 
students. So I know that Princeton Review has worked with the 
school system, I know that Kaplan worked with the school 
system. It's available within the public school system, free 
SAT preparation.
    Ms. Norton. And you know, I would like you to submit to 
this committee precisely what that assistance is, because if 
it's Saturday classes, that's not like what my son and every 
kid at his school had.
    Ms. Rodriguez. Absolutely.
    Ms. Norton. And I have to tell you, there's no way to 
level--this is not you, this is not anything that this program 
was meant to provide, but I live in the real world, and I know 
there's no way to level the playing field with kids going to 
college today if you have not had access to one of these 
tutoring programs to take the SAT. They teach to the test, 
that's exactly what they do, and you've got a leg up over a kid 
who hasn't had access to that. I'd be very interested in 
working with the program and with CAP on that basis.
    Mr. Talley.
    Mr. Talley. One of my comments, listening to you earlier, 
was when you're looking at the data for testing, which is the 
Stanford 9 for D.C. public schools, versus the data from the 
SAT, two entirely different sets of scores. One would ask, how 
can someone be below basic on the Stanford 9 and come up with 
500 or 600 in one subject matter on the SAT? Well, in part, one 
is a norm based exam and the other one is a criterion based 
exam. So the criterion based exams are more toward the SATs and 
the ACTs.
    Now, how do we kind of bridge that gap? What many of the 
schools are doing, and I was at Woodson for many years, and you 
were there on several occasions with us, and so was Chairman 
Davis when the bill was signed. One of the things that we put 
in the high schools is the SAT math and SAT verbal. At 
Washington Math Science, commonly called WMST, all 10th graders 
are required to take the math SAT program and the verbal SAT 
program.
    Ms. Norton. Do you mean take it as part of the curriculum?
    Mr. Talley. As a part of the curriculum. Consequently, that 
has increased our scores. I'm sure you read last year that we 
were in the top 4 percent of all high schools in the country. 
There were only four schools in D.C. that made that list.
    Ms. Norton. And you sure did, and congratulations. We are 
all very proud of this charter school.
    Mr. Talley. We were ranked 369 out of over 10,000 high 
schools in the country in the Newsweek article last year.
    Ms. Norton. And three of our public schools as well.
    Mr. Talley. Absolutely. Banneker was there, and School 
Without Walls and Wilson. Absolutely.
    So my view is that the kids that we work with are the same 
kids across the river, the same kids that have these social 
issues. However, it's what we do with those kids. As I 
mentioned earlier in my testimony, and even when I was at 
Woodson for the business and finance program, that we still had 
outstanding students. You remember last year India Austin, 
she's at Stanford. Now, as a part of my testimony for the 
reauthorization, Stanford doesn't qualify for the TAG money. 
However, what we try to look for is additional funding. They 
gave her $40,000 to come out there. So she's doing quite well.
    And I will say, our partnership with the DC CAP, while I 
was at Woodson, was an asset to the school. It still is. And 
working with them provided additional services. And with the 
scores, and I think that one of the things with DC CAP was the 
encouragement for those extra programs. And as a result, it 
pays off.
    Ms. Norton. Thank you very much. Speaking of DC CAP, and 
we're talking here about the revenue stream for the TAG 
Program, I'm very impressed with what CAP has been able to do. 
I do think you are completely indispensable to what we are 
doing here in D.C., just to throw some money out there and say, 
you all go to college, is not going to work for many of our 
students, at least.
    I'm wondering if you will experience anything like the kind 
of shortfall TAG is experiencing, if you have some basic 
revenue stream. And may I correct people, the credit was given 
to Katherine Graham for this program. And Katherine Graham was 
deeply involved in our public schools. Nobody could have been 
more deeply involved. But let me say for the record that Don 
Graham is the godfather of the CAP Program, and in a real sense 
of this TAG Program as well. It is Don Graham, this notion had 
been out there for a long time that what we should do would be 
to somehow allow students to have access to State colleges and 
I can't say enough about what he's done. I know that he has 
helped raise money, along with many other businesses in this 
area.
    But I have to ask you, have you experienced any problems 
because of the poor economy? How will we assure that DC CAP 
continues as we are trying to assure that DC TAG continues?
    Ms. Rodriguez. It is a challenge, fundraising is a 
challenge. But to the credit of the Washington business 
community and the philanthropic foundations, they have embraced 
this program in a way that I don't think any other program in 
the city has been embraced. And a great deal of that is due to 
the fact that they knew they were in partnership with Congress. 
And that in itself provides potential donors with the 
reassurance of the longevity of the program.
    We, as I stated in my testimony, we've raised now $35 
million. We don't intend to stop. Because in fact, we have an 
increasing number of kids going to college. The cost of tuition 
is escalating such. But I strongly, strongly believe that the 
Washington community, the business community, the philanthropic 
community is completely, 100 percent behind this program and 
completely, completely committed to the partnership with the 
Congress.
    So we will continue.
    Ms. Norton. And it is the regional business community.
    Ms. Rodriguez. Yes, it's regional.
    Ms. Norton. Many of these extraordinarily generous 
corporations and business leaders live in Virginia and 
Maryland. I know I speak for the chairman when I say that if 
you need correspondence from us about the importance of CAP to 
what we are doing here in the Congress, I hope you will not 
hesitate to call on us.
    Ms. Rodriguez. We appreciate that. Thank you very much. Mr. 
Talley, you wanted to say something?
    Mr. Talley. Yes. I was just given a note that we also have 
two additional students here and I would ask them to stand. 
They're two sisters, one is a junior and I believe the other 
one is a senior from Tennessee State University.
    Ms. Norton. Stand right on up here so we can see you.
    [Applause.]
    Ms. Norton. We take pride in you and what it means for this 
program.
    I'd like to ask Mr. Ford, are you the first in your family 
to go to college?
    Mr. Ford. I'm one of the first. I have two older sisters 
who graduated from North Carolina Central. They didn't live 
with my parents. I am one of the first in my household to 
graduate from college.
    Ms. Norton. You seem to be a before and after student. When 
you first went to Delaware State----
    Mr. Ford. University of Delaware, I'm sorry.
    Ms. Norton. University of Delaware is where you went?
    Mr. Ford. Yes.
    Ms. Norton. When you first went, the program wasn't in 
existence, but while you were there, you were able to take 
advantage? Is that what your testimony said?
    Mr. Ford. I attended University of Delaware in 1998, the 
program didn't come into existence until 2000. So it was my 
junior year when I applied for the program.
    Ms. Norton. I meet so many people who have said, oh, 
goodness, I wish it had been there, I just missed it. Could you 
tell me what the difference is between what you paid in tuition 
in 1998 and what you paid in the year after?
    Mr. Ford. Well, as I stated in my testimony, my parents 
contributed the first 2 years almost $3,000.
    Ms. Norton. But what was the tuition?
    Mr. Ford. What was the tuition?
    Ms. Norton. Yes. What was the difference in the tuition 
when you had to pay full out of State tuition, if you recall, 
and what was the tuition when you had to pay only low in-State 
tuition?
    Mr. Ford. Tuition I think when I first got there was 
probably around, for out of State students it was $15,000 for 
the whole year.
    Ms. Norton. What's the in State?
    Mr. Ford. In State would probably be around $6,000.
    Ms. Norton. That gives you an idea of what the difference 
is.
    Mr. Davis, if he were here, would correct me if I'm wrong, 
but I remember looking at the statistics on UVA, one of the 
best of the State universities in the country, at the time that 
this bill was passed. For out of State students, it was 
something like $16,000, for in State it was something like 
$4,000. Obviously it's gone up since.
    But if that doesn't mean the difference between where you 
go and where you don't go, or whether you go, I don't know what 
does. It's typical that this reduces tuition sometimes as much 
as a quarter or a third. When you have low in-State tuition, 
the whole point of States doing this is to get more and more 
people into college. It means that most of it is subsidized, 
and that's what the Congress does here.
    Let me ask you, Ms. Valentine, just to clear up for the 
record, there were some stories, a story or two in the press 
about what looked like pretty minor amounts of money that 
concerned you with some staff in the operation of the program. 
You're new to the program, I take it you were brought in to 
help deal with whatever operational issues you found. I wonder, 
by the way, we know a lot about the program from the GAO, which 
kept very close tabs on this program. So we are assured that we 
weren't dealing with major problems.
    But I wonder, what operational problems you found and what 
have you done about them, and what about these minor amounts, 
for example, where somebody went to, on Christmas vacation to 
their family but also went to see a college that was under your 
program at the same time, and it looked as though that wasn't 
the main reason for the program. I recognize that's one person 
and one travel chip. But I wonder if you found any like 
problems or what operational problems you may have found, and 
if so, what you've done about them.
    Ms. Valentine. To address the operational problem that 
you're referring to in terms of the travel, we've done a 
complete audit of all the State education office travel with 
the Office of Budget for the District. What we've done is 
reviewed every single travel, we've identified the cost 
associated with every single travel, exactly where it was 
funded from. Fortunately, we've only been able to determine, 
we've been able to determine, I should say, that the TAG money 
that was in question was really not in question. The person 
that--we can justify it, and I'd be happy to share the 
documentation with you, because we've gone through every 
single----
    Ms. Norton. So you don't even think that was a problem, 
that problem that was in the press is not a problem?
    Ms. Valentine. No, what I'm saying is that we have 
identified any misuse of funds, and it was very minimal, not to 
suggest that's not a problem. It was minimal. A personnel 
action was taken as it relates to the person that was 
inappropriately traveling. And we have moved to put regulations 
and protocols in place. We have adopted the Executive Office of 
the Mayor travel guidelines. We've instituted a tier system for 
authorization of travel, and to the best of my knowledge, 
that's the extent of my engagement with it.
    Ms. Norton. Do you have to approve all travel now?
    Ms. Valentine. Yes, absolutely. They have to justify it, 
and there is a process on the back end where you need to 
justify who you saw, what you did, the expenses and receipts 
and you have a date certain to return the documentation. So 
within 30 days of your travel, it needs to be submitted for 
reimbursement, if that's necessary. And the advances will be 
predicated on what it is you're doing and how long you're going 
to be there.
    Clearly, if you're going to add your personal leave to a 
business trip, that will be taken into consideration in terms 
of what your per diem would be for that activity.
    Ms. Norton. Have you discovered any other, well, that one 
instance, I won't call an operational difficulty, but have you 
discovered any operational improvements that you would like to 
make?
    Ms. Valentine. I'm looking at the disbursement issue and 
the relationship with the financial institutions at the 
universities. Because there seems to be a little bit of a 
disconnect. So we're going to work on that.
    Ms. Norton. Would you describe that in English, please? The 
disbursement issue?
    Ms. Valentine. The money that's being paid to the 
universities, the invoicing for the students. So often the 
disbursement office or the bursar's office is not talking to 
another office within the organization, so there may be an 
invoice for a student, they don't realize that it's been paid, 
so there's a little disconnect, so the student appears to not 
be in the appropriate status for them to continue their 
education. So I'm going to work with DC CAP, because they've 
established relationships with some of the institutions that we 
seem to be having a problem with.
    But I only have been there 12 days and I'm looking at it. I 
will be happy to get back to you with anything else.
    Ms. Norton. You've only been on the job 12 days?
    Ms. Valentine. Yes.
    Ms. Norton. Goodness. Do you know of any instances where, 
these days, schools treat you like bill collectors. If your 
tuition isn't on time, they de-register you, don't allow you to 
register, have you had any situations where students have been 
threatened because of the difficulty in getting TAG money to 
them?
    Ms. Valentine. I've heard from some of the staff that's a 
problem. That's what we're identifying, the schools that seem 
to be most problematic, and we're going to address those right 
away.
    Ms. Norton. But you don't think that comes from your 
payment schedule?
    Ms. Valentine. I can't answer that. I'm sure there's 
probably some process that can be improved without 
organization. I wouldn't suggest that there wouldn't be.
    Ms. Norton. Will you pay tuition on time, when you get the 
money, does it go straight out?
    Ms. Valentine. Yes. There is a 30 day turnover time. Yes, 
absolutely. Again, we're going to look at that, because I'm 
sure there are things that fall through the cracks. I wouldn't 
say there weren't. But I don't know yet, but that is high on my 
agenda, absolutely.
    Ms. Norton. Mr. Talley.
    Mr. Talley. I'd like to make a comment about that, the 
procedural issue with the TAG office. Several students over the 
years receive the letters from the colleges and universities 
that say they haven't received the funding from the DC TAG 
office. And I will say that immediately, I always call. They 
always come to the counselors or to someone and it always comes 
to me at my school, and even at Woodson where I'm no longer 
there this year. They still call me for those issues, and the 
young man sitting here had an issue.
    What we're finding is that there is that linkage between DC 
TAG and the college or university. Usually it's the university 
or the college. What we have found, or what I have found is 
that they have not sent the request or billed the district for 
the funding. Sometimes they did not understand the process or 
how to do it, but I will say that once, I usually call Ken 
Howard, and they usually take care of it right away.
    But the issues that I've found usually come from the 
university, not from the TAG office.
    Ms. Norton. That's very reassuring. Colleges of course, and 
universities in the United States, are experiencing something 
entirely new, as far as they're concerned. There's no problem 
like this. So they've had to orient themselves as to how to 
deal with this as well.
    Let me ask you about residency. You know what a stickler I 
am, don't pay a commuter tax, please don't come over here for 
DC TAG. [Laughter.]
    So in order to make sure that you are a bona fide resident, 
there were some issues. It's always difficult to have to prove 
your residency, particularly since people are in various status 
in terms of their ability to prove it. But still, it seems to 
me rather than have a cent of this money go to anybody but D.C. 
residents, especially given the shortfall, I've got to ask you 
about residency and how and whether you can assure me that each 
and every person in this program is a D.C. resident and how you 
can assure me that you assure yourself that is the case.
    Ms. Valentine. I've been assured by the staff to this point 
that----
    Ms. Norton. They'll assure you. But what do they do? What 
does a resident go through in order to demonstrate that the 
resident is a bona fide D.C. resident?
    Ms. Valentine. If they are a D.C. public school graduate--
--
    Ms. Norton. Let me just indicate why this is important. The 
chairman and I talk about leveling the playing field. This is 
the one instance I know, perhaps with the $5,000 homebuyer 
credit, that's D.C. only, but this is the one instance I know 
where D.C. gets something that nobody else in the United States 
gets. If you have a State university or a bunch of State 
universities in your State, you get to pick from those. But you 
don't get to go to one halfway across the country.
    So there is some incentive for people to say, let me see if 
I can sneak in under the wire here, particularly since we know 
people have tried to do that ad infinitum for our public 
schools. We all look closely at Ellington and the charter 
schools to make sure these folks are in fact D.C. residents. 
Because we don't have enough places here for our own folks. 
That's the background of this question about residency.
    Ms. Valentine. We verify with D.C. public schools, after 
their first year, the D40 tax return is required. To get to 
your point, I think there is an opportunity for something to 
happen in the first year in terms of them not being residents. 
But I understand from the staff that it's very, they are very 
few, and as soon as they identify it, in the second year, then 
the grant----
    Ms. Norton. So what happens in the first year?
    Ms. Valentine. There is a provision where the D.C. public 
school students are not required to provide that tax 
information. The assumption is that if they go to D.C. public 
schools----
    Mr. Talley. That's not exactly correct.
    Ms. Valentine [continuing]. And that D.C. public schools 
are audited, but the assumptions that they are in D.C. public 
schools, and the audit has proved out that they are a D.C. 
resident.
    Ms. Norton. I hate to do this. That isn't good enough for 
me. I know the D.C. public schools are audited, because we sat 
here and went through this when the control board was here. We 
wanted to make sure D.C. was not spending money for students 
who are out of State.
    There are many, many people who work in D.C. who live in 
Maryland or Virginia, and they had a habit of bringing their 
children here. It happens all the time in big cities, that 
people come in. What kind of thing, surely there are things you 
can ask people to do, short of the tax form. On this, I'm such 
a stickler, I'm about to have a workshop for small businesses. 
I have a tax fair, you've got to show your voter card, you've 
got to show your driver's license with your address on it. 
You've got to bring something to get into any of my stuff here 
that's meant to help D.C. residents.
    So I would really wonder about what it is that you have to 
show in the first year.
    Ms. Valentine. I'd be happy to get back to you on that, and 
would be happy also to look at requiring D.C. public school 
students to provide the same documentation in the first year 
that they have to provide in ongoing years. We'll get back to 
you on that.
    Ms. Norton. I would very much appreciate that.
    Mr. Ford.
    Mr. Ford. I just want to make a point on that, on 
documenting residency. As a financial counselor, I run into a 
lot of students, D.C. resident students who are not eligible to 
apply for DC TAG because they can't show proof that they are a 
resident, regarding their parents' D40. Some students that we 
have, they work but they are not required to file taxes because 
they did not make enough money. Or we have students whose 
parents are not claiming them on their taxes, so they can't 
show proof that they are D.C. residents.
    Ms. Norton. I don't know if the Federal forms that people, 
I mean, the Feds have their own set of eligibility requirements 
that it seems to me might be transferable here. The last thing 
I'm trying to do is make this more of a bureaucratic process. 
But frankly, we have often found that people slide in under, 
and really it's costly enough to D.C. public schools. The 
notion that you did it to us in D.C. public schools, and you're 
going to keep doing it to us is a little bothersome to me.
    I wish you all would look closely at that. Mr. Talley.
    Mr. Talley. One of the issues that we faced with D.C. 
public schools and with the charter school is that last year 
charter schools had to show proof of the D40. This year they do 
not. However, we do have students that may have parents that 
live in Maryland or Virginia, and the issue with that, with me, 
in informing the students, is that they're going to have to 
still show proof that you're a District resident, meaning if 
your parents filed in Maryland or Virginia, you're ineligible. 
If your parents live in the District and they file and pay 
taxes in the District, then they're eligible.
    My view, and trying to explain this to parents so they can 
understand is this, that grandparents, if you reside in the 
District of Columbia but the bottom line is that if you pay 
taxes in Maryland or Virginia, you're basically ineligible for 
the TAG.
    Ms. Norton. Yes, who in the world would pay taxes if they 
didn't have to.
    Mr. Talley. But you have some families that try to sneak in 
under the umbrella, because they live with their aunts and 
uncles, cousins and all that. So we're pretty tight at our 
school as far as that's concerned. There are students who don't 
qualify for the TAG, and the parents are aware of that.
    Ms. Norton. It may seem hard hearted until you recognize 
what this city has gone through.
    Mr. Talley. Absolutely.
    Ms. Norton. And that we don't have any State, and therefore 
we have every reason to redouble. I wish you would submit for 
the record what is the process for first year students and what 
is the process thereafter.
    Ms. Valentine. Absolutely.
    Ms. Norton. Final question for Mr. Ford. You indicated in 
your testimony that you hope that many D.C. residents at 
Trinity College, which is one of the colleges that gets a very 
significant number of our students, but you said many of these 
students who are residents are not currently able to benefit 
from this program. I hope that some issues can be addressed in 
the reauthorization process to allow all D.C. residents to be 
eligible. Would you mind elaborating on that?
    Mr. Ford. What I mean by that is that we have students, we 
have adult students that attend Trinity and are not eligible to 
get the grant, because one, they did not graduate out of high 
school after 1998 or they did not attend a college since the 
spring of 2001. So we have adult students who are starting this 
year who are not eligible for the grant. That's what I meant by 
that.
    Ms. Norton. This was one of the most heartbreaking fights 
I've fought. I've tried to get students, precisely the kind 
you're talking about, included, and was able to get some small 
changes. But just as graduate students aren't covered, I 
literally tried to get and for a while there thought I had 
covered students back to 20 years ago. I thought the fact that 
somebody wanted to go, remember, it's the same, it would be the 
same requirements, but you decided to go back to college when 
you were 30 or 35. Yet you'd have to go through all that the 
TAG students went through. I thought we ought to reward those 
people, and struggled very hard for it.
    I was not able to convince, I think the chairman understood 
and was with me. I could not get the Senate to do that. But 
what they did instead, the quid pro quo that they gave me 
instead was the HBCUs. They said, no, we're not going to go 
back, they thought there were too many issues about where these 
people may have been during these 20 years or 30 years, and too 
many issues to follow through.
    So instead, I negotiated the HPU part of the bills, which 
says that if you go to any HBCU in the country, not just those 
in this region, you can get the $2,500. So that's the long and 
short of this. So we can't really hold out any hope, having 
tried very hard for those students who missed it for good 
reason. They just didn't have, just like many of our students 
today, they simply didn't have enough revenue, enough funds to 
go. We will not be able to recapture those students, I don't 
believe, after having gone through that struggle.
    Let me just say to the four of you that the testimony that 
you've given is very important. Because when the chairman and I 
go forward with a bill on the floor, we have to somehow have 
enough familiarity with all parts of that bill to answer all 
questions. When I carry it over to the Senate, we've got to be 
able to do the same thing. And you have been very generous, 
very informative, in making us understand the program far 
better than we did before.
    I very much appreciate the testimony, how detailed it was, 
and how your own oral testimony has buttressed it as well, I 
think, make it likely that we will be able to go forward with 
reauthorization. Thank you very much for coming to this 
hearing. I thank our D.C. students for coming. Let me say again 
for myself and the chairman that you are living proof of this 
bill, and therefore you encourage us more than anything even 
that our excellent witnesses have said to go forward and assure 
that there is reauthorization.
I want to thank all the staff of our program and of the D.C. 
public schools who have helped to make this program work.
    Thank you very much and this hearing is adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5000.025

[GRAPHIC] [TIFF OMITTED] T5000.026

[GRAPHIC] [TIFF OMITTED] T5000.027

[GRAPHIC] [TIFF OMITTED] T5000.028

[GRAPHIC] [TIFF OMITTED] T5000.029

[GRAPHIC] [TIFF OMITTED] T5000.030

[GRAPHIC] [TIFF OMITTED] T5000.031

[GRAPHIC] [TIFF OMITTED] T5000.032

                                 <all>

</pre></body></html>
